          FEDERAL HOUSING FINANCE AGENCY
            OFFICE OF INSPECTOR GENERAL



    CliftonLarsonAllen LLP’s Audit of FHFA’s Controls
        and Protocols over Sensitive and Proprietary
       Information Collected and Exchanged with the
            Financial Stability Oversight Council




Audit Report: AUD-2012-009                   September 28, 2012
AUDIT OBJECTIVE: The objective of this performance audit was to evaluate FHFA’s controls and
protocols over sensitive and proprietary information collected and exchanged with the Financial Stability
Oversight Council.



Because information in this report could be abused to circumvent FHFA’s internal controls, it has not
been released publicly.
